No. 21-

IN THE

Supreme Court of the United States
K.E.K.,
Petitioner,
v.
WAUPACA COUNTY,
Respondent.
On Petition for a Writ of Certiorari
to the Court of Appeals of Wisconsin

PROOF OF SERVICE
I, Colleen D. Ball, hereby declare that on this date, July 2, 2021,
I caused an original and ten copies each of K.E.K.’s Motion for Leave to
Proceed In Forma Pauperis and Petition for Writ of Certiorari to be filed
with the United States Supreme Court by sending them via a thirdparty commercial carrier for delivery within 3 calendar days to the
Clerk, United States Supreme Court, 1 First Street, N.E., Washington,
D.C. 20543.
I further declare that all parties required to be served with copies
of these documents have been served. Specifically, I served a copy of the
Motion for Leave to Proceed In Forma Pauperis and Petition for Writ of
Certiorari upon the following counsel on July 2, 2021, by depositing the
copies with the United States Postal Service, properly addressed and
first-class postage prepaid:
Attorney for Waupaca County
Diane L. Meulemans
Waupaca County Corporation Counsel
811 Harding St.
Waupaca, WI 54981
Diane.Meulemans@co.waupaca.wi.us

Also on July 2, 2021, I transmitted an electronic version of these
documents to counsel for Waupaca County.
Additionally, per Wis. Stat. 806.04(11), I am required to serve the
Attorney General and Wisconsin legislature with proceedings
challenging the constitutionality of a statute. Therefore, I also served a
copy of the Motion for Leave to Proceed In Forma Pauperis and Petition
for Writ of Certiorari upon the following on July 2, 2021, by depositing
the copies with the United States Postal Service, properly addressed and
first-class postage prepaid:
Maura F.J. Whelan
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857
Robin Vos
Wisconsin Assembly Speaker
State Capitol-Room 217 West,
P.O. Box 8953
Madison, WI 53708
Chris Kapenga
Wisconsin Senate President
State Capitol-Room 220 South
P.O. Box 7882
Madison, WI 53707-7882
Devin LeMahieu
Senate Majority Leader
State Capitol-Room 211 South
P.O. Box 7882
Madison, WI 53707-7882
I declare under penalty of perjury that the foregoing is true and
correct.
Dated this 2nd day of July, 2021.
___________________
Colleen D. Ball
Counsel of Record
WISCONSIN STATE PUBLIC DEFENDER
735 North Water Street, Suite 912
Milwaukee, WI 53202
(414) 227-3110

ballc@opd.wi.gov

